<html>
<title> - EXAMINING CRITICAL SECURITY MEASURES, COMMUNICATIONS, AND RESPONSE AT OUR NATION'S AIRPORTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 EXAMINING CRITICAL SECURITY MEASURES, COMMUNICATIONS, AND RESPONSE AT 
                         OUR NATION'S AIRPORTS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 OF THE
                                 
                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 2015

                               __________

                           Serial No. 114-39

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
99-745 PDF                     WASHINGTON : 2016                        
            
_______________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8deafde2cdeef8fef9e5e8e1fda3eee2e0a3">[email&#160;protected]</a>  
                   
                    
                    
                    
                    COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
             Vacancy, Minority Subcommittee Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts................................     5

                               Witnesses

Mr. Jeremy P. Martelle, President, New York Aviation Management 
  Association:
  Oral Statement.................................................     8
  Prepared Statement.............................................    12
Ms. Marisa Maola, Regional Director, Region One, Transportation 
  Security Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                             For the Record

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Letter.........................................................    19

 
 EXAMINING CRITICAL SECURITY MEASURES, COMMUNICATIONS, AND RESPONSE AT 
                         OUR NATION'S AIRPORTS

                              ----------                              


                        Monday, October 26, 2015

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                      Syracuse, NY.
    The subcommittee met, pursuant to call, at 10:42 a.m., in 
the Ceremonial Courtroom, James M. Hanley Federal Building, 100 
S. Clinton Street, Syracuse, New York, Hon. John Katko 
[Chairman of the subcommittee] presiding.
    Present: Representatives Katko and Keating.
    Mr. Katko. The Committee on Homeland Security, the 
Subcommittee on Transportation Security, will come to order.
    Before I do my statement, I would like to note the fact 
that I used to practice in this courtroom for about 16 years, 
and it is really nice to be back here. It is important that we 
are having this hearing here today. This is the closest I will 
come to having a gavel in this building ever again, I think.
    I do want to make a statement for the record, and I will 
begin.
    The subcommittee is meeting today to hear testimony on the 
security measures, communications, and response at our Nation's 
airports, and I will now recognize myself for an opening 
statement.
    If security at our Nation's airports was flawless, there 
would be no need for today's hearing. But the fact of the 
matter is that our Nation's airports are far from flawless as 
far as security goes.
    The subcommittee is convening this field hearing today to 
assess the state of security preparedness among our Nation's 
airports. Today, we will hear the critically-important 
perspective of the individuals who face security challenges on 
the front line each and every day in New York State and 
elsewhere throughout our country.
    The American people expect the best from the entities 
entrusted with their safety. It is this subcommittee's 
intention to continue working tirelessly to ensure the security 
of the traveling public. I am humbled and honored to have the 
opportunity both to represent the people of central New York 
and to chair this critically-important subcommittee.
    In my 10 months in office, I have worked vigorously to 
address known challenges that the Department of Homeland 
Security faces. Since January, I have introduced 7 pieces of 
legislation that address transportation and border security 
issues, 2 of which are already public law.
    As you can tell from this committee, security is not a 
partisan issue, and I am proud of the work that I have done 
with my Democratic colleagues to tackle this critically 
important issue. However, my colleagues and I have a lot more 
work to do, and I promise we will continue to provide diligent 
oversight of homeland security. When we see a problem with this 
agency, we work swiftly to address it.
    Two years ago, there was a tragic shooting at Los Angeles 
International Airport where Gerardo Hernandez, a Transportation 
Security Officer, lost his life, and two other TSA employees 
and one member of the traveling public were injured. This 
shooting and other incidents force us to face the grim reality 
that airports remain a target for terrorists and other violent 
actors who seek to disrupt the safe travel of the American 
public and challenge the security of our Nation's 
transportation systems. This is of serious concern.
    Last month, President Obama signed the Gerardo Hernandez 
Airport Security Act of 2015 into law. I introduced this piece 
of bipartisan legislation because it specifically addresses the 
ways in which the airport community and the TSA prepare for, 
respond to, and communicate during major security incidents, 
such as active shooters.
    I will note also that I had a wonderful conversation with 
Gerardo Hernandez' widow after the fact, and she was very 
excited that the bill was passed, and she was excited that it 
honored her husband, but she was more excited to do something 
about security at airports across this Nation. She is a good 
woman.
    From the LAX shooting to the machete attack earlier this 
year on a TSA employee in New Orleans, we know that there is a 
dire need for airports to effectively ready themselves for a 
wide range of security scenarios.
    In this regard, TSA must be proactive in proliferating best 
practices for security across the airport community to ensure 
the well-being of both the agency's own employees and the 
traveling public.
    While each airport is unique, it is imperative that airport 
stakeholders, airlines, law enforcement, emergency first 
responders, and TSA work together to exercise plans and improve 
coordination among relevant entities.
    So far, in the 114th Congress, our subcommittee has 
conducted rigorous oversight of airport access controls at 
airports across this country. This issue goes hand-in-hand with 
the overall security of the airport environment as we work to 
mitigate insider threats and close security loopholes.
    Our witnesses today conduct and experience daily airport 
operations and are best prepared to inform Congress as to how 
they work to enhance security incident preparedness.
    Long before the terror attacks of September 11, 2001, the 
Syracuse community was made all too aware of the critical need 
for a secure transportation system. On December 21, 1988, a 
bomb detonated aboard Pan Am Flight 103, traveling from London 
to New York. Thirty-five of the bombing victims were Syracuse 
University students who were traveling home for the holidays 
after spending a semester studying abroad.
    Another one of the individuals on board was a very good 
friend of mine's sister, the U.S. Attorney for the Northern 
District of New York. His sister was a student at Oswego State 
University, and she was also lost on that flight. So to say 
that it has hit home is an understatement.
    Since that tragic event, there has been a litany of attacks 
and plots against both commercial aviation and airports. This 
reality highlights the need for Congressional oversight for 
each aspect of the transportation system, including the 
physical security and preparedness of airports themselves.
    There is an on-going discussion between the airport 
community and TSA about the future of airport exit lane 
staffing. As many airports begin to adopt technological 
solutions, like Syracuse has, I am interested in a better 
understanding of the effectiveness of such technologies and the 
benefit they provide to both TSA and the airports.
    I will note that Syracuse has an automated exit lane. That 
means that there are no guards there, as mandated after 9/11, 
because the exit lane is completely automated. We want to 
examine the efficacy of trying to expand that Nation-wide, 
whether that is better security than having three or four 
individuals there. There is also a cost-saving measure involved 
in this as well.
    Additionally, airport perimeter security, which my 
colleague is vitally interested in, and employee access 
controls remain critical in ensuring that secure and sensitive 
areas of airports are only accessed by vetted and authorized 
individuals.
    Today I look forward to hearing from our witnesses about 
their perspectives on the security posture of our airports and 
how they are working to stay ahead of a changing threat 
landscape while coordinating across Federal, State, and local 
jurisdictions to ensure safety of the traveling public.
    Syracuse Airport is on the cutting edge of leveraging 
technology to address security vulnerabilities. I look forward 
to hearing how Syracuse Airport and other airports throughout 
New York State are utilizing innovative tactics to enhance 
security.
    In closing, I urge both of our witnesses to let us know how 
Congress can help you fulfill your critical missions, and I 
would appreciate a very candid discussion. Don't be afraid. I 
won't go into prosecutor mode, I promise, although it is 
tempting in this courtroom.
    I thank both of our witnesses for their time, and I 
appreciate the opportunity we all have today to hear how best 
practices can be shared and refined to ensure the security and 
safety of our Nation's aviation system.
    With that, I will now recognize the gentleman from 
Massachusetts, Mr. Keating, for any statement that he may have. 
I want to thank him for making the effort to come here before, 
when I flew down to Washington to serve in Washington this 
week.
    So, Mr. Keating.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                            October 26, 2015
    If security at our Nation's airports was flawless, there would be 
no need for today's hearing. But the fact of the matter is that our 
Nation's airport security is far from flawless.
    The subcommittee is convening this field hearing today to assess 
the state of security preparedness among our Nation's airports. Today, 
we will hear the critically-important perspective of the individuals 
who face security challenges each and every day in New York State.
    The American people expect the best from the entities entrusted 
with their safety. It is this subcommittee's intention to continue 
working tirelessly to ensure the security of the traveling public. I am 
humbled and honored to have the opportunity both to represent the 
people of central New York and to chair this critically important 
subcommittee.
    In my 10 months in office, I have worked vigorously to address 
known challenges that the Department of Homeland Security faces. Since 
January, I have introduced 7 pieces of legislation that address 
transportation and border security issues, 2 of which are already 
public law.
    Security is not a partisan issue, and I am proud of the work I have 
done with my Democratic colleagues to tackle this critically-important 
issue. However, my colleagues and I have a lot more work to do, and I 
promise we will continue to provide diligent oversight of DHS. When I 
see a problem at this agency, I work swiftly to address it.
    Two years ago, there was a tragic shooting at Los Angeles 
International Airport where Gerardo Hernandez, a Transportation 
Security Officer, lost his life, and 2 other TSA employees and 1 member 
of the traveling public were injured.
    This shooting, and other incidents force us to face the grim 
reality that airports remain a target for terrorists and other violent 
actors who seek to disrupt the safe travel of the American public and 
challenge the security of our Nation's transportation systems. This is 
of serious concern.
    Last month, President Obama signed the Gerardo Hernandez Airport 
Security Act of 2015 into law. I introduced this critical piece of 
bipartisan legislation because it specifically addresses the ways in 
which the airport community and the Transportation Security 
Administration prepare for, respond to, and communicate during major 
security incidents, such as active shooters.
    From the LAX shooting, to the machete attack earlier this year on a 
TSA employee in New Orleans, we know that there is a dire need for 
airports to effectively ready themselves for a wide range of security 
scenarios.
    In this regard, TSA must be proactive in proliferating best 
practices for security across the airport community to ensure the well-
being of both the agency's own employees and the traveling public.
    While each airport is unique, it is imperative that airport 
stakeholders, airlines, law enforcement, emergency first responders, 
and TSA work together to exercise plans and improve coordination among 
relevant entities.
    So far, in the 114th Congress, our subcommittee has conducted 
rigorous oversight of airport access controls at airports across the 
country.
    This issue goes hand-in-hand with the overall security of the 
airport environment, as we work to mitigate insider threats and close 
security loopholes.
    Our witnesses today conduct and experience daily airport operations 
and are best prepared to inform Congress as to how they work to enhance 
security incident preparedness.
    Long before the terror attacks of September 11, 2001, the Syracuse 
community was made all too aware of the critical need for a secure 
transportation system. On December 21, 1988, a bomb detonated aboard 
Pan Am Flight 103, traveling from London to New York.
    Thirty-five of the bombing's victims were Syracuse University 
students, who were traveling home for the holidays after spending a 
semester studying abroad.
    Since that tragic event, there has been a litany of attacks and 
plots against both commercial aviation and airports. This reality 
highlights the need for Congressional oversight for each aspect of the 
transportation system--including the physical security and preparedness 
of airports themselves.
    There is an on-going discussion between the airport community and 
TSA about the future of airport exit lane staffing. As many airports 
begin to adopt technological solutions--including Syracuse--I am 
interested in a better understanding of the effectiveness of such 
technologies and the benefit they provide to both TSA and airports.
    Additionally, airport perimeter security and employee access 
controls remain critical in ensuring that secure and sensitive areas of 
airports are only accessed by vetted and authorized individuals.
    Today, I look forward to hearing from our witnesses about their 
perspectives on the security posture of our airports and how they are 
working to stay ahead of a changing threat landscape while coordinating 
across Federal, State, and local jurisdictions to ensure safety of the 
traveling public.
    Syracuse Airport is on the cutting edge of leveraging technology to 
address security vulnerabilities. I look forward to hearing how 
Syracuse airport and other airports throughout New York State are 
utilizing innovative tactics to enhance security.

    Mr. Keating. Thank you, Mr. Chairman, for convening this 
important hearing.
    Thank you to our witnesses for joining us this morning.
    Every week I fly between my home in Massachusetts and my 
office in the District of Columbia, and I am well aware that 
our airports face unique and challenging times. The personnel 
do a fine job working trying to keep us safe. In fact, it 
wasn't long ago that the Chairman of the full committee, 
Chairman McCaul and I, did a field hearing at Logan 
International Airport. That was in 2011 to discuss both 
individual shared concerns expressed by airport operators, 
employees and, of course, passengers. It is with this 
perspective that I carefully observe the security and the 
layouts of our airports as I visit them.
    As I left Boston and arrived in Syracuse this morning, I 
noted the differences between the two, from size to staffing. 
This morning's hearing provides us with an opportunity to 
continue the on-going discussion over critical security, 
communications, and response at our airports outside the walls 
of the committee hearing room.
    Led by Chairman Katko and the subcommittee's Ranking 
Member, Congressman Rice, our subcommittee has followed tragedy 
and triumphs at airports from Atlanta to New York to Los 
Angeles. Today we find ourselves in Syracuse, where we have an 
opportunity to hear from two sides of the multi-faceted 
aviation security equation.
    Ms. Maola, the Regional Director of TSA Region One, and Mr. 
Martelle, the president of the New York Aviation Management 
Association, again, thank you for being here.
    No conversation surrounding airport security can continue 
without thorough discussion of the tragedy at Los Angeles 
International Airport nearly 2 years ago. On November 1, 2013, 
a gunman entered LAX with a semi-automatic rifle, ammunition, 
and the specific intent to harm Transportation Safety Officers. 
He opened fire on Transportation Security Officer Gerardo 
Hernandez, who was in the action of diligently checking 
passenger boarding passes and doing this important function. He 
was killed in cold blood.
    He then proceeded into the sterile area of the airport, 
where he shot and injured 2 Transportation Security Officers, 
James Speer and Tony Grigsby.
    The Los Angeles Airport Police Department, along with 
numerous emergency responders, acted quickly and bravely to 
subdue the shooter, who injured at least 6 innocent bystanders. 
If it were not for their valiant actions, further loss of life 
may have been catastrophic.
    If there was one silver lining in such an inexplicable 
tragedy, it is the increased knowledge and understanding we 
have of our threats, our vulnerabilities, as well as our 
capacity to respond. In the aftermath of the LAX shooting, we 
learned that there was much to be done in terms of preparedness 
in response to active shooter and other emergency situations 
that may arise at our Nation's airports.
    Through reviews in the last Congress, for instance, we 
learned that not all the panic buttons and red phones utilized 
at checkpoints were functioning properly, and real challenges 
existed relating to the interoperability of communications for 
first responders. I cannot underscore the importance that law 
enforcement agencies be able to communicate with each other, 
emergency care providers, the airport, and TSA, in real time. 
How else can they ensure their responses to emergency 
situations are comprehensive, and how else will those entities 
coordinate a response with one another?
    Since the LAX shooting, we learned that other 
vulnerabilities pervade aviation security efforts. Of 
particular interest to me is the risk posed by the airport's 
perimeter. This spring, the Associated Press revealed that 
there had been at least 268 perimeter security breaches at 31 
major U.S. airports, and TSA has calculated a total of over 
1,300 perimeter security breaches at 450 domestic airports from 
2001 to 2011. This figure includes an incident near and dear to 
my heart, when Delvonte Tisdale, a teenager from North 
Carolina, snuck onto the tarmac at Charlotte Douglas 
International Airport and perished when an airplane on which he 
was stowed away dropped its wheels for a landing. That figure 
does not account for continued perimeter security breaches 
since 2011, including stowaways, stowaways that trespassed 
across tarmacs, scaled perimeter fences, and drove vehicles 
through barriers across airport property.
    As I have often said, we are lucky that these individuals 
did not harbor nefarious intentions, but that doesn't mitigate 
the risk posed by such behavior to airports, employees and, of 
course, the passengers and travelers who rely on TSA officers 
and airport operators for their security.
    The LAX incident revealed yet another discrepancy in our 
respect for this first line of defense. TSO Hernandez lost his 
life doing his job protecting our Nation's aviation passengers. 
However, as TSOs are not considered law enforcement officers 
under Federal law, his family was not initially entitled to 
death benefits. Through leadership on this subcommittee and our 
full committee, we are able to extend those benefits to his 
family through work with our appropriations in the last 
Congress. But other TSOs still do not receive death benefits.
    Congresswoman Brownley of California has introduced 
legislation, the Honoring Our Fallen TSA Officers Act, to 
rectify this discrepancy, and I hope that all will give the 
measure serious consideration. I myself am proud to be a co-
sponsor of this legislation.
    Further, the Gerardo Hernandez Airport Security Act of 
2015, as the Chairman mentioned, recently became public law. 
Now TSA and DHS are directed to work with airports to develop 
and verify individualized plans to respond to security 
incidents, as well as share best practices--that is very 
important--among airports.
    Further, at a recent hearing with TSA Administrator 
Neffenger, I confirmed that TSA is currently conducting a top-
to-bottom review of our Nation's airport security needs. I look 
forward to hearing from Ms. Maola about how the Gerardo 
Hernandez Airport Security Act and comprehensive internal 
review will make airports more secure and better-prepared for 
emergency situations in the future. I also look forward to the 
testimony of Jeremy Martelle of the New York Aviation 
Management Association regarding changes to security plans and 
sharing of best practices amongst New York airports.
    It is our shared responsibility to mitigate, if not 
prevent, tragic shootings like at LAX, or perimeter breaches 
like those in San Jose, San Francisco, and Charlotte from 
occurring in the future. I want to reiterate the importance of 
the work done by the Transportation Security Officers. They are 
working on the front lines every day to keep us safe.
    Mr. Chairman, thank you again for convening this hearing, 
and I look forward to a productive dialogue, and I yield back 
the balance of my time.
    Mr. Katko. Thank you, Mr. Keating.
    I want to note that Mr. Keating has been at the forefront 
of arguing about beefing up firmer security at airports Nation-
wide, and his work in that area is much appreciated. His work 
on the committee with me and the other colleagues is much 
appreciated as well.
    We are pleased to have two distinguished witnesses before 
us today to speak on this important topic. Let me remind the 
witnesses that their entire written statements will appear in 
the record.
    Our first witness is Mr. Jeremy Martelle, who serves as 
president of New York State Aviation Management Association. 
Mr. Martelle has over 24 years of aviation experience in both 
civil and military aviation operations. Mr. Martelle served as 
the Security and Operations Manager at Albany International 
Airport and served in the New York International Guard as a 
member of the 109th Airlift Wing.
    We thank you for your military service, and I say that as a 
father whose son is just embarking on the beginning of his 
military service.
    The Chair now recognizes Mr. Martelle to testify. But 
before I do, I want to note for the record that Mr. Martelle 
was a last-minute substitution. We very much appreciate him 
dropping everything to come here. He was not notified until 
Thursday evening of the substitution.
    The substitution came about due to the fact that we had 
originally scheduled Christine Callahan from the Syracuse 
Airport to testify to shed light on some of the good things 
that are going on in Syracuse Airport and to learn from some of 
those good things. We got word from the mayor's office that she 
was not allowed to testify, apparently for some litigation 
reasons, so we appreciate Mr. Martelle for stepping in when he 
did.
    So, thank you very much, Mr. Martelle. Your testimony, 
please.

 STATEMENT OF JEREMY P. MARTELLE, PRESIDENT, NEW YORK AVIATION 
                     MANAGEMENT ASSOCIATION

    Mr. Martelle. Thank you. Good morning, Ranking Member 
Keating and Chairman Katko. On behalf of the New York State 
public and private-use airports, I would like to thank you for 
inviting me to participate in today's field hearing on 
examining critical security measures, communications, and 
responses at our Nation's airports.
    The New York Aviation Management Association's--referred to 
as NYAMA--mission is to promote the viability and business 
interests of New York State's airports. NYAMA represents over 
13,000 members and affiliate members, 120 commercial service 
and general aviation airports, fixed-base operators, 
consultants, engineers, and aviation professionals at the State 
and regional levels.
    Airports are economic engines fueling growth in the 
communities they serve. According to a 2010 study by the New 
York State Department of Transportation, the aviation industry 
contributes over $50 billion in annual economic activity in New 
York State, and almost 400,000 State residents work in aviation 
or aviation-related industries.
    The economic benefits of New York State airports are 
impressive. As a whole, aviation generates $18 billion in 
payroll and $4.5 billion in State and local tax revenue 
annually. However, the efficacy of this powerful economic 
engine and its benefits to New York's citizens is threatened by 
a critical lack of funding for our airports and their security 
programs.
    Airport security is an essential function of how airports 
operate. The TSA and airport staff process millions of 
passengers, thousands of airport employees, and tons of air 
cargo safely and efficiently all year round. This is done 
primarily through the cooperation of private business such as 
the airlines, vendors, concessions, air cargo operators, and 
the other agencies such as the airport operators, TSA, and 
local law enforcement. It is because of this cooperation that 
our airports are some of the safest in the world.
    The TSA serves a 2-part role in airport security. First, 
they are responsible for the screening of passengers and their 
belongings. Second, they are the regulatory authority over all 
other airport security functions. The airport operator must 
develop and maintain an Airport Security Program in accordance 
with Code of Federal Regulations Part 1542. This program 
describes the means in which airports will carry out security 
functions such as employee credentialing, fingerprinting, 
criminal history background checks, security training, fence 
line perimeter security, airport terminal access control 
systems, camera systems, and vehicle checkpoint inspections. In 
addition, airports are required to provide law enforcement 
services to support their ASP and the TSA passenger checkpoint. 
All of these functions come at a high expense which the airport 
must bear with little or no Federal funding.
    Airports are considered high-value targets for those who 
wish to do us harm. The latest challenge in the battle to 
secure our Nation's airports is to identify and eliminate what 
is referred to as the ``airport employee insider threat.'' One 
way our airports are addressing this is through the TSA's 
newly-created My Airport Initiative, which is an awareness 
program designed to target airport employees and instruct them 
on the appropriate actions to take if they observe any 
employees acting in a suspicious manner. The program was 
initially launched with a short 5-minute video clip explaining 
the initiative, and the TSA is encouraging airports to promote 
this new campaign directed at the insider threat.
    One of NYAMA'S member airports decided to incorporate the 
TSA's My Airport into its security training classes to teach 
employees how to identify and report these insider threats. 
This airport has also teamed with local law enforcement and has 
created an informational poster that has been placed in the 
work areas of airport employees. These posters encourage 
employees to report any suspicious behavior anonymously to 
airport security. This effort shows how airports, local law 
enforcement, and the TSA can work together to increase 
awareness concerning airport security threats and take steps to 
mitigate these potential problems before they happen.
    NYAMA strongly supports active-shooter planning and 
training. The Port Authority of New York and New Jersey, one of 
our members, operates six metropolitan New York airports. When 
I inquired about their active-shooter program, they stated that 
their airports' law enforcement officers have partnered with 
TSA and other first responders to hold drills at each of their 
airports. They also use TSA and Homeland Security videos to 
train airport staff in recommended procedures for active-
shooter incidents--run, hide, fight, et cetera. The Port 
Authority's Assistant Director of Aviation Security and 
Technology indicated that the TSA's resources are very limited 
for training and educational aids like posters or handouts on 
active shooters. They have posters on their website that 
airports can reproduce at their own expense, and the Port 
Authority has, in fact, spent its own funds for this purpose.
    In recent years the TSA has engaged airports, requiring 
them to increase the airports' participation in security 
screening airport employees and products entering the sterile 
and secured areas of the airport. Currently, airports are 
required to conduct random and cursory inspections on all 
employees. The TSA has begun to ask if airports are willing to 
do more, much more. This increase has overloaded airports, 
which are generally funded through Federal and State grants. 
Adding more duties is a difficult task to accomplish. There 
could be a point in the future where the screening of all 
employees and products entering all sterile and secured areas 
of the airport will become a requirement. This will place a 
demand on the staffing and facilities like no other. Before 
such a mandate could be initiated, Federal funding assistance 
would need to be available to reimburse airports for these 
costs.
    The funding of airport security improvements for equipment 
and facilities has always been a challenge for airports. 
Shortly after the end of World War II, the Federal Government 
embarked on a grants-in-aid program to units of State and local 
governments to promote the development of a system of airports 
to meet the Nation's needs. This program, known as the Federal 
Aid Airport Program, was authorized by the Federal Airport Act 
of 1946 and received its funding from the general fund of the 
U.S. Treasury. Since then, this program has been amended 
several times, most recently with the passage of the FAA 
Modernization and Reform Act of 2012. Funds obligated for the 
Airport Improvement Program are drawn upon from the Airport and 
Airway Trust Fund, which is supported by user fees, fuel taxes, 
and other similar revenue sources.
    A lot of things have changed since 1946. The aging 
infrastructure of today's airports have required the allocation 
of a large majority of airport funding to go directly to 
immediate safety needs such as those associated with runways, 
taxiways, safety areas, and aircraft parking aprons. Airport 
security, while just as important, in many cases takes second 
place to these highly visible safety improvement projects. One 
way to combat this would be to create a dedicated funding 
stream, similar to the current FAA Airport Improvement Program, 
in order to assist airports in funding security improvements or 
TSA mandates. This could be accomplished through carving out 
special funding sources through the passenger facility charge 
program or the security fee charges through airline ticket 
purchases.
    To give some perspective on the significant costs 
associated with airport security improvements, I would like to 
provide the following local example. In May 2013, the Syracuse 
Hancock International Airport completed construction on a 
passenger terminal security and access improvements project. 
This $60 million project, which is currently being paid for 
through the collection of passenger facility charges, was 
designed to bring both the physical screening of passengers and 
baggage in alignment with current-day security requirements, 
and it also allowed for the expansion and implementation of 
future screening requirements. The new centralized security 
checkpoint has improved passenger and baggage screening at 
several levels: New security screening equipment, including 
advanced baggage imaging technology; implementation of TSA 
PreCheck; improved customer service by consolidating TSA 
resources into one centralized location; and the ability to 
implement new security requirements, such as the requirement to 
screen all concession employees.
    While programs like this are not typical, extensive 
financial resources had to be obligated in order for this 
project to occur, and most airports would see other critical 
projects go unfunded as a result of such a reprioritization of 
resources. In the mean time, for the next several years a 
portion of the airport's PFC funds will have to go to paying 
for this required project rather than addressing other needs. 
Having a National program that could prioritize these needs, 
similar to the AIP program, with oversight and ranking by 
priority, might give airports more flexibility to focus on 
operational needs.
    Technology in airport security has its own set of 
challenges. Just like your home computer and other personal 
electronic equipment, airport security technology has a limited 
life span. This technological obsolescence, where a product is 
no longer technologically superior to another similar product, 
requires airports to be constantly planning for the next major 
upgrade or replacement of these very important systems.
    For example, access control from the public areas to the 
secure areas of most airports is strictly managed through the 
use of a computer-controlled access system using a card reader 
and personal identification number. These systems have the 
capability to enable and disable their own security badges if 
they are stolen or the employee leaves airport employment. All 
access can be immediately revoked.
    The second layer of this system is the closed-circuit 
television system, which is an integral part of every airport's 
security program. Both of these types of systems have improved 
substantially over the course of the past decade. 
Unfortunately, the costs associated with keeping the technology 
on the cutting edge, and in some cases keeping them 
functioning, takes significant operational and capital 
investment.
    Another technological advancement that Syracuse Airport is 
using is referred to as the automated exit portals. Following 
completion of the centralized security checkpoint, the airport 
reconfigured the previous checkpoints at each concourse as the 
exits for passengers leaving the secure area. The airport then 
installed automated exit portals at these locations. The 
automated exit portals allow passengers and employees to exit 
the secure area safely, while at the same time preventing 
people from accessing the secured area. The portals provide a 
positive barrier to security breaches by preventing people and 
things from entering or accessing the secure area from a non-
secure area.
    In addition to the safety and security benefits of the exit 
portals, the cost savings are such that the portals have paid 
for themselves. Because the exit portals are automated, the 
airport is no longer required to physically monitor the exit 
lanes, thus eliminating the human error element. In addition to 
Syracuse, the exit portals are also located at the airports in 
Atlantic City, St. Petersburg/Clearwater, and installation is 
scheduled to begin this November at JFK.
    The Gerardo Hernandez Airport Security Act. Individual 
incidents and detection of new security threats at airports 
will many times result in increased scrutiny of and mandates on 
airports on the part of the TSA. Sometimes events lead to 
Congressional actions. The Gerardo Hernandez Airport Security 
Act represents one such response by Congress that seeks to 
improve security incident preparedness by directing TSA to 
verify that airports across the United States have incorporated 
procedures for responding to active shooters targeting security 
checkpoints into their existing incident plans.
    Additionally, the legislation directs the administrator of 
TSA to report to the appropriate Congressional committees 
findings regarding the levels of preparedness at airports. The 
new Federal law also requires that the agency certify to the 
appropriate Congressional committees that all screening 
personnel have participated in training for active-shooter 
scenarios. Another feature of the legislation requires TSA to 
conduct a review of the interoperable communications 
capabilities of law enforcement and TSA to conduct a review of 
these communications.
    These are all important tasks, and it is appropriate in 
most cases that Congress exercise oversight over TSA and 
airport security efforts. Compliance by both TSA and airports 
with these mandates will necessitate cooperation and 
coordination among all stakeholders and recognition that new 
rules and requirements for new technologies will impose 
additional costs on an already financially-burdened airport 
system.
    NYAMA is well-positioned to actively participate in this 
process and represent New York's airports and related 
industries in this effort to make the Nation's aviation 
facilities the safest and most secure in the world against 
hostile threats. We stand ready to assist you, the Congress, 
and the TSA in this important endeavor as we go forward.
    I am available to answer any questions you may have. Thank 
you.
    [The prepared statement of Mr. Martelle follows:]
                Prepared Statement of Jeremy P. Martelle
                            October 26, 2015
    Good morning Ranking Member Keating and Chairman Katko. On behalf 
of New York State's public and private-use airports, I would like to 
thank you for inviting me to participate in today's field hearing on 
Examining Critical Security Measures, Communications, and Responses at 
Our Nation's Airports. NYAMA's mission is to promote the viability and 
business interests of New York State's airports. NYAMA represents over 
13,000 members and affiliate members, 120 commercial service and 
general aviation airports, fixed-based operators, consultants, 
engineers, and aviation professionals at the State and regional levels.
    Airports are economic engines fueling growth in the communities 
they serve. According to a 2010 study by the New York State Department 
of Transportation, the aviation industry contributes over $50 billion 
in annual economic activity in New York State and almost 400,000 State 
residents work in aviation or aviation-related industries. The economic 
benefits of New York State airports are impressive. As a whole, 
aviation generates $18 billion in payroll and $4.5 billion in State and 
local tax revenue annually. However, the efficacy of this powerful 
economic engine and its benefits to New York's citizens is threatened 
by a critical funding for our airports security programs.
    Airport security is an essential function of the how airports 
operate. The TSA and airport staff process millions of passengers, 
thousands of airport employees, and tons of air cargo safely and 
efficiently all year round. This is done primarily through the 
cooperation of private business such as the airlines, vendors, 
concessions, air cargo operators, and the other agencies such as the 
airport operators, TSA, and local law enforcement. It is because of 
this cooperation, that our airports are some of the safest in the 
world.
                            airport security
    The TSA serves a two-part role in airport security. First, they are 
responsible for the screening operation of passengers and their 
belongings. Second, they are the regulatory authority over all other 
airport security functions. The airport operator must develop and 
maintain and Airport Security Program (ASP) in accordance with CFR Part 
1542. This program describes the means in which airports will carry out 
security functions such as; employee credentialing, fingerprinting, 
criminal history background checks, security training, fence line 
perimeter security, airport terminal access control systems, camera 
systems, vehicle checkpoint inspections. In addition, airports are 
required to a provide law enforcement entity to support their ASP and 
the TSA passenger checkpoint. All of these functions come at a high 
expense which the airport must bear with little or no Federal funding.
    Airports are considered ``high-value targets'' for those who wish 
to do us harm. The latest challenge in the battle to secure our 
Nation's airports is to identify and eliminate what is referred to as 
the ``airport employee insider threat''. One way our airports is 
addressing this is through the TSA's newly-created ``My Airport 
Initiative'' which is an awareness program designed to target airport 
employees and instruct them of the appropriate actions to take if they 
observe any employees acting in a suspicious manner. The program was 
initially launched with a short 5-minute video clip explaining the 
initiative and the TSA is encouraging airports to promote this new 
campaign directed at the insider threat.
    One of NYAMA'S member airports decided to incorporate the TSA's 
``My Airport'' into its security training classes to teach employees 
how to identify and report these insider threats. This airport has also 
teamed with local law enforcement which has created informational 
posters that have been put up in the work areas of airport employees. 
These posters encourage employees to report any suspicious behavior 
anonymously to airport operations. This effort shows how airports, 
local law enforcement, and the TSA can work together to increase 
awareness about airport security threats and take steps to mitigate 
these potential problems before they happen.
    NYAMA strongly supports active-shooter planning and training. The 
Port Authority of New York and New Jersey, one of our members, operates 
six metropolitan New York airports. When I inquired about their active-
shooter program, they stated that their airports' law enforcement 
officers have partnered with TSA and other first responders to hold 
drills at each of their airports. They also use TSA/Homeland Security 
videos to train airport staff in recommended procedures for active-
shooter incidents--run, hide, fight, etc. The Port Authority's 
Assistant Director of Aviation Security and Technology indicated that 
the TSA's resources are very limited for training and educational aids 
like posters or handouts on active shooter. They have posters on their 
website that airports can reproduce at their own expense and the Port 
Authority has in fact spent its own funds for this purpose.
    In recent years the TSA has engaged airports requiring them to 
increase the airport's participation in screening airport employees and 
products entering the sterile and secured areas of the airport. 
Currently, airports are required to conduct random and cursory 
inspections on all employees. The TSA has begun to ask if airports are 
willing to do more, much more. This increase has overloaded airports 
which are generally funded through Federal and State grants. Adding 
more duties is a difficult task to accomplish. There could be a point 
in the future where the screening of all employees and products 
entering all sterile and secured areas of the airport will become a 
requirement. This will place a demand on the staffing and facilities 
like no other. Before such a mandate could be initiated, Federal 
funding assistance would need to be available to reimburse airports for 
these costs.
                        airport security funding
    The funding of airport security improvements for equipment and 
facilities has always been a challenge for airports. Shortly after the 
end of World War II, the Federal Government embarked on a grants-in-aid 
program to units of State and local governments to promote the 
development of a system of airports to meet the Nation's needs. This 
program known as the Federal-Aid Airport Program (FAAP) was authorized 
by the Federal Airport Act of 1946 and received its funding from the 
general fund of the U.S. Treasury. Since then, this program has been 
amended several times, most recently with the passage of the FAA 
Modernization and Reform Act of 2012. Funds obligated for the AIP are 
drawn from the Airport and Airway Trust fund, which is supported by 
user fees, fuel taxes, and other similar revenue sources.
    A lot of things have changed since 1946. The aging infrastructure 
of today's airports have required the allocation of a large majority of 
airport funding to go directly to immediate safety needs such as those 
associated with runways, taxiways, safety areas, aircraft parking 
areas, etc. Airport security, while just as important, in many cases 
takes second place to these very visible safety improvement projects. 
One way to combat this would be to create a dedicated funding stream, 
similar to the current AIP in order to assist airports in funding 
security improvements or TSA mandates. This could be accomplished 
through carving out special funding sources through the passenger 
facility charge program or the security fee charges through airline 
ticket purchases.
    To give some perspective on the significant costs associated with 
security improvements, I would like to provide the following example. 
In May of 2013, right here in the Syracuse Hancock International 
Airport completed construction on a passenger terminal security and 
access improvements project. This $60 million project, which is 
currently being paid for through the collection of passenger facility 
charges, was designed to bring both the physical screening of 
passengers and baggage in alignment with current-day security 
requirements, and it also allowed for expansion and implementation of 
future screening requirements. The new centralized security checkpoint 
has improved passenger and baggage screening at several levels; new 
screening equipment including advanced imaging technology, 
implementation of TSA Pre-Check; improved customer service by 
consolidating TSA resources into one centralized location; and the 
ability to implement new security requirements, such as the requirement 
to screen all concession employees.
    While programs like this are not typical, extensive financial 
resources had to be obligated in order for this project to occur and 
most airports would see other critical projects go unfunded as a result 
of such a reprioritization of resources. In the mean time, for the next 
several years a portion of the airport's PFC funds will have to go to 
paying for this required project rather than addressing other needs. 
Having a National program that could prioritize these needs similar to 
the AIP program with oversight and ranking by priority might give 
airports more flexibility to focus on operational needs.
                    airport security and technology
    Technology in airport security has its own set of challenges. Just 
like your home computer and other personal electronic equipment, 
airport security technology has a limited life span. This technological 
obsolescence where a product is no longer technically superior to 
another similar product requires airports to be constantly planning for 
the next major upgrade or replacement of these very important systems.
    For example, access control from the public area to the secure 
areas of most airports is strictly managed through the use of a 
computer-controlled access system using a card reader and personal 
identification number. These systems have the capability to enable and 
disable all automated controlled access points on all card readers/
security badges. If an employee loses their security badge, it is 
stolen, or the employee leaves airport employment, all access can be 
immediately revoked. The second layer of this system is the closed-
circuit television system which is an integral part of every airports 
security program. The airport, local law enforcement, and TSA, have the 
ability to reduce the number of access control doors employees are 
permitted to use which ensures greater control over who can access the 
secure area and from which access point.
    Both of these types of systems have improved substantially over the 
course of the past decade. Unfortunately, the costs associated with 
keeping the technology on the cutting edge, and in some cases, keeping 
them functioning, takes significant operational and capital investment.
    Another technological advancement that Syracuse Airport is using 
are referred to as the automated exit portals. Following completion of 
the centralized security checkpoint, the airport reconfigured the 
previous checkpoints at each concourse as the exits for passengers 
leaving the secure area. The airport then installed automated exit 
portals at these locations. The automated exit portals allow passengers 
and employees to exit the secure area safely, while at the same time 
preventing people from accessing the secured area. The portals provide 
a positive barrier to security breaches by preventing people and things 
from entering or accessing the secure area from a non-secure area. In 
addition to the safety and security benefits of the exit portals, the 
cost savings are such that the portals have paid for themselves. 
Because the exit portals are automated, the airport is no longer 
required to physically monitor the exit lanes, thus eliminating the 
human error element. In addition to Syracuse, the exit portals are also 
located at the airports in Atlantic City, St. Petersburg/Clearwater, 
and installation is scheduled to begin this November at JFK.
             the ``gerardo hernandez airport security act''
    Individual incidents and detection of new security threats at 
airports will many times result in increased scrutiny of and mandates 
on airports on the part of the TSA. Sometimes events lead to 
Congressional actions. The Gerardo Hernandez Airport Security Act 
represents one such response by Congress that seeks to improve security 
incident preparedness by directing TSA to verify that airports across 
the United States have incorporated procedures for responding to active 
shooters targeting security checkpoints into their existing incident 
plans.
    Additionally, the legislation directs the administrator of TSA to 
report to the appropriate Congressional committees findings regarding 
the levels of preparedness at airports. The new Federal law also 
requires that the agency certify to the appropriate Congressional 
committees that all screening personnel have participated in training 
for active-shooter scenarios. Another feature of the legislation 
requires TSA to conduct a review of the interoperable communications 
capabilities of the law enforcement, fire, and medical personnel 
responsible for responding to a security incident at airports in the 
United States.
    These are all important tasks and it is appropriate in most cases 
that Congress exercise oversight over TSA and airport security efforts. 
Compliance by both TSA and airports with these mandates will 
necessitate cooperation and coordination among all stakeholders and 
recognition that new rules and requirements for new technologies will 
impose additional costs on already financially-burdened airports.
    NYAMA is well-positioned to actively participate in this process 
and represent New York's airports and related industries in this effort 
to make the Nation's aviation facilities the safest and most secure in 
the world against hostile threats. We stand ready to assist you, the 
Congress and the TSA in this important endeavor as we go forward.
    I'm available to answer any questions you may have.

    Mr. Katko. Thank you very much, Mr. Martelle. We appreciate 
you being here today, and we appreciate your testimony.
    The second witness is Ms. Marisa Maola.
    Did I say that correctly?
    Ms. Maola. Yes, sir.
    Mr. Katko. Okay.
    She currently serves as the regional director of Region One 
at the Transportation Security Administration, including New 
York, New Jersey, Delaware, Massachusetts, Connecticut, 
Vermont, New Hampshire, Rhode Island, and Maine. Ms. Maola has 
served in this post since January 2012.
    In addition, Ms. Maola currently serves as the Federal 
Security Director at JFK International Airport. I am interested 
in hearing about the exit lane issue there as well. Previously, 
Ms. Maola served as a Federal Security Director at LaGuardia 
International Airport.
    I am going to recognize you to testify, and I want to ask 
you, if you can, to try to keep it as close to 5 minutes as you 
can and just summarize your testimony. We will have plenty of 
time to get into the details as we go on. Thank you.

   STATEMENT OF MARISA MAOLA, REGIONAL DIRECTOR, REGION ONE, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Maola. Yes. Good morning, Chairman Katko and 
Congressman Keating. I appreciate the opportunity to appear 
before you today to discuss airport security operations.
    Providing security for the traveling public and workplace 
safety for the Transportation Security Administration workforce 
are our highest priorities.
    On November 1, 2013, Transportation Security Officer 
Gerardo Hernandez was shot and killed at his post at Los 
Angeles International Airport. Officer Hernandez had worked for 
the TSA since 2010 and left behind a wife and 2 children. 
Behavioral Detection Officer Tony Grigsby, Security Training 
Instructor James Speer, and a passenger were also wounded in 
the shooting.
    On March 21, 2015, Supervisory TSO Carol Richel was 
attacked by an assailant with a machete at the Louis Armstrong 
New Orleans International Airport. Officer Richel was grazed by 
a bullet as a Jefferson Parrish Sheriff's deputy fired shots 
during the attack. The assailant also sprayed wasp repellent at 
three other TSA officers.
    While our officers showed bravery and commitment in the 
face of great tragedy, these incidents demonstrate an alarming 
trend of lone-wolf individuals bent on harming our Nation's 
transportation system and our TSA workforce.
    Following the events at LAX, then-Administrator John 
Pistole convened a working group to address vulnerabilities 
highlighted during the incident. The group included 
representatives from law enforcement agencies and associations, 
labor groups and industry associations, TSA employees, and 
other Federal, State, and local agencies. Out of these 
discussions, TSA conducted a National review focused on 
training and communications, emergency response equipment and 
technology, and law enforcement officer presence at checkpoints 
and response to emergencies. I would like to address each of 
these issues.
    The Los Angeles and New Orleans incidents raised concerns 
about the adequacy of training for TSA employees responding to 
emergency scenarios such as an active shooter. Following the 
review, TSA made active-shooter training mandatory for our 
workforce on an annual basis and created our own training 
videos specifically focused on the airport environment. We also 
regularly conduct mandatory emergency response training, table-
top exercises, and evacuation drills for our TSA personnel at 
airports, along with our airport law enforcement partners. 
Through daily shift briefings and internal communications, we 
have made officer safety a reoccurring theme of TSA's 
communication to our front-line employees, engaging our 
officers on the importance of remaining vigilant and alert, 
reinforcing access control measures, and reporting suspicious 
activity.
    Regarding emergency response equipment and technology, our 
review indicated that many airports needed improvements to 
their alert notification systems, such as ensuring that duress 
alarms are present at all screening locations. In response, TSA 
procured 5,500 additional duress alarms. We also conducted a 
survey and found that 98 percent of the existing alarms were 
fully functional. We took corrective action to fix the 
remaining alarms, and TSA employees are now required to conduct 
weekly tests on the alert systems.
    As part of our review, TSA also studied law enforcement 
presence at airports. TSA requires all airports to either post 
a law enforcement officer at the screening checkpoint or 
incorporate maximum law enforcement response times in their 
airport security plan or ASP. TSA conducted a thorough review 
of all ASPs to ensure these requirements were appropriately 
documented. These response times can vary by airport to ensure 
they are both practical and appropriate, as we recognize the 
importance of allowing discretion in these determinations. 
However, ensuring that all airports adopt clearly-articulated 
maximum response times in their ASP is critical.
    TSA continues to monitor and enforce airport compliance 
with the response times defined in their respective ASPs. 
Additionally, TSA has issued recommended standards for 
increased law enforcement presence during peak travel times at 
checkpoints and high-traffic lobby areas such as ticket 
counters to provide visible deterrence and faster response 
times. We support this effort through a partial reimbursement 
agreement program that assists airports toward payment of 
dedicated law enforcement officers working in and around the 
passenger screening checkpoints during operational hours. We 
have strongly encouraged airports to adopt these measures.
    The tragic shooting of Officer Hernandez and the attack on 
Officer Richel were horrifying and heart-rending. TSA has taken 
a series of positive steps to prevent such tragedies from 
occurring again. I want to thank the subcommittee for your 
support as we seek additional ways to improve officer safety 
and security and airport security generally. TSA greatly 
appreciates the support of Congress in these endeavors and we 
value the committee's direction through the Gerardo Hernandez 
Airport Security Act of 2015, which codifies many of the 
lessons we learned in our after-action report following the LAX 
shooting and enables us to continue that work.
    TSA has been coordinating extensively with the aviation and 
surface transportation stakeholders on active-shooter drills, 
emergency response planning and training, and we look forward 
to that continued effort.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [The prepared statement of Ms. Maola follows:]
                   Prepared Statement of Marisa Maola
                            October 26, 2016
    Good morning Chairman Katko, Ranking Member Rice, and other Members 
of the subcommittee. I appreciate the opportunity to appear before you 
today.
    On November 1, 2013, Transportation Security Officer (TSO) Gerardo 
Hernandez was shot and killed at his post at a Los Angeles 
International Airport (LAX) Transportation Security Administration 
(TSA) checkpoint. Officer Hernandez had worked for TSA since 2010 and 
leaves behind a wife and two children. Behavior Detection Officer (BDO) 
Tony Grigsby, Security Training Instructor (STI) James Speer, and a 
passenger were also wounded in the shooting.
    On March 21, 2015, Supervisory TSO Carol Richel was attacked by an 
assailant with a machete at the Louis Armstrong New Orleans 
International Airport (MSY). Officer Richel was grazed by a bullet as a 
Jefferson Parrish Sheriff's deputy fired shots during the attack. The 
assailant also sprayed wasp repellent at three other TSA officers.
    While our officers showed bravery and commitment in the face of 
great tragedy, these incidents demonstrate an alarming trend of 
continued and persistent threat of ``lone wolf'' individuals bent on 
harming our Nation's transportation systems and its workforce.
                 lessons learned and follow-up actions
    Following the events at LAX, then-Administrator Pistole convened a 
working group to address vulnerabilities highlighted during the 
incident. The group included representatives from law enforcement 
agencies and associations, labor groups and industry associations, TSA 
employees, and other Federal, State, and local agencies. Out of these 
discussions, TSA conducted a National review focusing on the following 
areas: Training and communications; emergency response equipment and 
technology; and law enforcement officer (LEO) presence at checkpoints 
and response to emergencies.
Training and Communications
    The Los Angeles and New Orleans incidents raised concerns about the 
adequacy of training for TSA employees responding to emergency 
scenarios such as an active shooter. Historically, active-shooter 
training had not been a primary focus, but was available to employees 
through two optional on-line courses. As of March 31, 2014, all TSA 
employees have completed this training, which is now mandatory for our 
workforce on an annual basis. At the time of the attack at LAX, the 
Federal Emergency Management Agency (FEMA) had its own active-shooter 
training video, which was shared immediately with TSA employees. TSA 
then created its own training video, specifically focused on the 
airport environment. This new airport-specific video is shared with all 
TSA employees. We also regularly conduct mandatory emergency response 
training and exercises for TSA personnel at airports, and with our 
airport and law enforcement partners to ensure seamless coordination 
and preparation in the event of an emergency situation.
    TSA also requires all worksites to develop and implement active-
shooter tactical response plans to include the designation of 
evacuation routes and establishment of rendezvous points. In March 
2014, TSA issued an Operations Directive requiring that all TSA Federal 
Security Directors (FSDs) at airports conduct mandatory evacuation 
drills twice a year. In addition, TSA recommends that airport operators 
conduct active-shooter training and exercises twice per year. In the 
case of New Orleans, an active-shooter scenario drill was conducted not 
long before the attack, and included multiple airport stakeholders such 
as the St. Charles Parish Sheriff's Office, the airport Fire 
Department, and airport management.
    TSA participates in annual tabletop exercises/briefing for disaster 
response every May. These exercises facilitate the coordination among 
TSA, the airport, Federal Emergency Management Agency (FEMA), and State 
and local law enforcement first responders. Many airports are also 
going above and beyond by conducting training and exercises dealing 
with scenarios such as hostage situations and vehicle-borne improvised 
explosive devices. TSA's tactical response plans detail actions 
required by field personnel in response to natural or man-made threats. 
In addition to the annual active-shooter requirement, local TSA 
leadership coordinates tactical response exercises on such scenarios as 
security checkpoint breach, air piracy, and natural disaster response.
    Officer safety has been a recurring theme in TSA's communications 
to front-line employees. Through daily shift briefings and internal 
communications, we continue to engage our officers on the importance of 
remaining vigilant and alert. Other actions taken include:
  <bullet> Requiring all TSA devices to be programmed with alternate 
        airport emergency phone numbers;
  <bullet> Encouraging field employees to program their personal phones 
        with airport emergency phone numbers; and
  <bullet> Highlighting the active-shooter threat with a focus on 
        reinforcing secure area access control measures, challenging 
        individuals without proper identification in secure areas, 
        maintaining good situational awareness, and reporting any 
        suspicious activity.
Emergency Response Equipment and Technology
    The National review following the LAX shooting indicated that many 
airports needed improvements to their alert notification systems, such 
as ensuring that duress alarms are present at all screening locations, 
including at terminal lobbies. TSA conducted a survey of screening and 
other locations and found that several of these locations did not have 
alert notification capability. In response, TSA procured 5,500 
additional duress alarms for critical locations where our officers 
perform security screening operations. We also conducted a survey of 
all existing duress alarms to determine if they were fully functional. 
Ninety-eight percent of the existing alarms were deemed fully 
functional, and we took corrective action to fix the remaining alarms. 
TSA employees are now required to conduct weekly tests with our airport 
partners to test the alert notification systems.
Law Enforcement Officer Presence Response to Emergencies
    In accordance with a pre-existing Security Directive, TSA requires 
all airports to either post a law enforcement office (LEO) at the 
screening checkpoint or incorporate maximum LEO response times in their 
Airport Security Programs (ASPs). Following the LAX incident, TSA 
conducted a thorough review of all ASPs to ensure that these 
requirements were appropriately documented. These response times can 
vary by airport to ensure they are both practical and appropriate, as 
we recognize the importance of allowing discretion in these 
determinations. However, ensuring that all airports adopt clearly-
articulated maximum response times in their ASP is critical. TSA 
continues to monitor and enforce airports' compliance with the response 
times defined in their respective ASPs, as well as additional 
requirements to maintain sections in their ASPs for contingency 
planning and incident management.
    Additionally, TSA has issued recommended standards for increased 
law enforcement presence during peak travel times at checkpoints and 
high-traffic lobby areas such as ticket counters to provide visible 
deterrence and faster response times, and supports this effort through 
a partial reimbursement agreement program that assists airports with 
payment towards dedicated law enforcement officers working in and 
around the passenger screening checkpoints during operational hours. We 
have strongly encouraged airports to adopt these measures. In the wake 
of the LAX attacks, TSA increased the percentage of Visible Intermodal 
Prevention and Response (VIPR) deployments conducted in commercial 
aviation locations--a measure that remains in place today. TSA's VIPR 
teams include Federal Air Marshals (TSA's law enforcement element), and 
VIPR operations are planned in cooperation with State, local, and/or 
Federal law enforcement organizations and transportation stakeholders.
    TSA maintains 101 Assistant Federal Security Directors for Law 
Enforcement (AFSD-LE) at 275 airports across the Nation. The primary 
duty of each AFSD-LE is to establish and maintain liaison relationships 
with local, State, and Federal law enforcement authorities on behalf of 
TSA. An organized and structured liaison program is a critical 
component to the overall transportation security mission, including the 
law enforcement response strategy for incidents. The liaison 
relationships with local, State, and Federal law enforcement 
organizations ensure that the AFSD-LE has constant contact with these 
partners, enabling a coordinated response to incidents.
  the gerardo hernandez airport security act of 2015 (pub. l. 114-50)
    TSA greatly appreciates the support of Congress in these 
endeavors--from the subcommittee's hearings on LAX lessons learned in 
the last Congress, to visiting LAX and meeting with Officer Hernandez's 
widow, your Members have been great partners in reducing the likelihood 
that situations like the LAX shooting or New Orleans attack will be 
repeated. TSA also values the committee's direction through the Gerardo 
Hernandez Airport Security Act of 2015 (Pub. L. 114-50), which requires 
us to conduct a series of reviews and outreach measures aimed at 
improving security incident response, including outreach to airports 
and high-risk surface transportation stakeholders to verify they have 
plans in place to address security incidents. This law codifies many of 
the lessons we learned in our after-action report following the LAX 
shooting, and enables us to continue that work. TSA has been 
coordinating extensively with aviation and surface stakeholders on 
active-shooter drills, emergency response planning, and training, and 
we look forward to continuing that effort.
                               conclusion
    The tragic shooting of Officer Hernandez and attack of Officer 
Carol Richel were horrifying and heart-rending. TSA has taken a series 
of positive steps to prevent such tragedies from occurring again. I 
want to thank the subcommittee for your support as we seek additional 
ways to improve officer safety and security, and airport security 
generally.
    Thank you for the opportunity to testify today. I look forward to 
answering your questions.

    Mr. Katko. Thank you, Ms. Maola.
    I ask unanimous consent to insert a letter I have sent to 
Administrator Neffenger for the Transportation Security 
Administration into the record. The letter focuses on defensive 
tactic training, and I just want to enter it into the record at 
this time. In part, it is about defensive tactic training for 
Transportation Security Officers at airports Nation-wide, and 
without objection, so ordered.
    [The information follows:]
             Letter From Chairman Katko to Peter Neffenger
                                  October 26, 2015.
The Honorable Peter Neffenger,
Administrator, Transportation Security Administration, U.S. Department 
        of Homeland Security, 601 12th Street, South Arlington, 
        Virginia 22202.
    Dear Administrator Neffenger: I write to inquire about defensive 
tactics training curricula employed by the Transportation Security 
Administration (TSA). This November will mark the two-year anniversary 
of the tragic acts of violence carried out against three TSA employees 
and one member of the traveling public at the Los Angeles International 
Airport, which resulted in the death of Transportation Security Officer 
Gerardo Hernandez. This tragedy became the impetus for H.R. 720, the 
Gerardo Hernandez Airport Security Act of 2015, which I introduced 
earlier this year. This legislation, which was signed into law on 
September 24, 2015, seeks to enhance the security of TSA personnel, 
aviation workers, and members of the traveling public.
    The strength of TSA is its personnel, and the agency has a duty to 
empower them through education and training, with sound personal 
tactics to accomplish their zero-fail mission of ensuring that threat 
objects of all kinds are not smuggled into an airport and onto an 
airplane. While it is important to train employees on the proper 
operation of equipment used at checkpoints, it is just as critical to 
properly train employees on how to handle combative individuals, who 
may seek to commit violent acts against passengers or TSA personnel. I 
am concerned that TSA is not adequately preparing employees to deal 
with threatening individuals posing a risk to their safety and the 
safety of the traveling public. In light of this, I request responses 
to the following questions by November 6, 2015:
    1. What specific officer safety issues has TSA identified at 
        airport security checkpoints?
    2. What are the baseline defensive tactics training TSA employees 
        receive, should an individual pose a threat to their safety?
    3. How many hours of defensive tactics training are required for 
        each employee, in order to graduate from the entry-level 
        training academy?
    4. How many hours of defensive tactics training are required for 
        each employee on a recurring basis?
    5. Does TSA communicate with local, State and Federal agencies to 
        discover new trends in defensive tactics?
    6. Has TSA implemented any enhancements to the defensive tactics 
        training curriculum, based on tactics being utilized by 
        criminal/terrorist groups?
    7. What are the protocols employed by checkpoints to ensure a 
        timely law enforcement response to threatening individuals, 
        should a threat to an officer and/or public safety exist?
    8. To what extent does TSA collect and track data on instances of 
        violent confrontations that occur at security checkpoints?
    I look forward to working with you to minimize this officer and 
public safety issue. The TSA expects the very best from the men and 
women on the front lines, and they should expect the same from their 
leadership. I appreciate your timely attention to this matter, and 
should you have any questions, please do not hesitate to contact me or 
my Committee staff.
            Sincerely,
                                                John Katko,
                 Chairman, Subcommittee on Transportation Security.

    Mr. Katko. In consultation with the Minority, we have 
decided to do a more loosely-defined hearing here today. We 
sometimes have as many as 30 people at a hearing, and sometimes 
as little as 2. Down in Washington it is more formal in how we 
proceed, but here, since there is definitely only going to be 2 
of us here today, we are going to relax the standards a bit. We 
are going to do about 10 minutes of questioning by myself, 
followed by 10 minutes of questioning by Mr. Keating, and we 
will go back and forth until you either are sick of us or we 
are sick of you. How does that sound? All right?
    I now recognize myself for 10 minutes of questions.
    Ms. Maola, I want to start with you because I appreciate 
your testimony in summary form, but I want to kind of drill 
down a little farther in the security preparedness of the 
airports, and it has been an evolution, as I understand it.
    The Gerardo Hernandez incident a couple of years ago 
exposed a gaping problem with security preparedness, so I want 
to know what has happened since then in summary form, and if 
you can after that tell us what is on the horizon given the 
fact that the Gerardo Hernandez bill is now law.
    Ms. Maola. Yes. Thank you, Chairman Katko. Lots of lessons 
learned following the LAX shooting; and, of course, the safety 
of our officers and the traveling public is paramount.
    After the LAX shootings, TSA convened a working group and 
they examined the incident and identified areas that needed 
improvement, and the areas that needed improvement were 
training, emergency response equipment, as well as law 
enforcement presence.
    So the training that TSA has been involved in over the last 
year, we have completed active-shooter training on well over 
55,224 employees. It is a yearly training, a mandatory 
training, and within that training TSA created a video with 
run, hide, and fight, which are some of the tactics which we 
train our officers to utilize during an active-shooter 
scenario.
    As far as the emergency response technology, we did 
recognize that the most immediate and the quickest way for our 
officers to get help, especially during an imminent threat, is 
to have duress alarms. We have been installing duress alarms at 
our airports, and it is a work in progress. We have completed 
most airports. Presently, if we don't have any new technology 
in place, each airport does have either a panic button or a 
phone, a direct line to the Port Authority--I am sorry, I am 
speaking directly for JFK--but directly to the airport 
authority, and we do test our alert notification system weekly 
to ensure that it is working.
    Also, as far as law enforcement presence, we have required 
that the airports put into their airport security program a 
maximum response time. For the most part, that is normally 5 
minutes or less.
    So those are some of the things that we are doing since the 
LAX shooting. Sir, on behalf of the TSA, we do want to thank 
the subcommittee for passing the Gerardo Hernandez bill. We 
have a working group that has convened that is looking at the 
provisions of the law, and they will be helping us to identify 
what needs to be carried out. In particular, the bill does talk 
about or requires TSA to disseminate best practices to our 
stakeholders, but it also requires for the airports and for TSA 
to work with the airports to have individualized incident 
response plans at their airports.
    Mr. Katko. Thank you. I want to follow up on a few of those 
things.
    As far as the emergency response, you have responded with 
respect to technology and duress alarms and stated that was a 
work in progress. What do you mean by that was a work in 
progress?
    Ms. Maola. So specifically within my region, I am working 
with the Port Authority for JFK, as well as Newark. So those 
airports do have means in place. We are working with a 
contractor and hope to have complete installation of the new 
duress alarms by this November.
    Mr. Katko. Now, regarding the active-shooter training 
scenarios, you said that you touch about 55,000 workers, and 
you do it by video training. What other types of training do 
you do to assist with the active-shooter situation?
    Ms. Maola. So, we work very closely with our law 
enforcement partners. Specifically for our officers, we do have 
a training video, but we also exercise it. We conduct exercises 
at our checkpoints. I could speak specifically for JFK. Again, 
working closely with the Port Authority, the Port Authority 
built a state-of-the-art, if you will, checkpoint and mock 
ticket counter in one of our buildings, Building 208, with the 
Port Authority Police, along with Port Authority Office of 
Emergency Management. Several times throughout the year we 
invite our TSOs, as well as our Behavior Detection Officers, 
along with the police and the law enforcement community, and we 
conduct active-shooter drills at mock checkpoints similar to an 
airport environment. So we do that first-hand.
    Not all airports are doing that, but we do have a 
requirement to have table-top drills and active-shooter drills, 
as well as at our checkpoints we conduct quarterly breach 
drills with our officers.
    Mr. Katko. Now, the Port Authority, I would expect, is 
always going to have their antenna up high with respect to 
terrorist activities, because we all know New York City is a 
high-priority target for international terrorists. But with the 
phenomenon developing of these lone-wolf situations, whether 
they are fueled on the internet by an ISIS type of group or 
just some sort of hate group Nation-wide, a domestic terrorism 
type, there is more of a possibility that airports outside of 
New York City are going to be high-value targets.
    Do you have any sense from what type of stuff they are 
doing in those airports outside of the New York City area, and 
do we need to do more at those airports to beef up the active-
shooter scenarios and training?
    Ms. Maola. Yes. So, it is not just exclusive to New York. 
All airports are required to conduct active-shooter training.
    Mr. Katko. How often do they have to do it?
    Ms. Maola. It is a yearly requirement for our officers, but 
as far as the law enforcement community, they are continually 
working together with TSA, as well as other law enforcement 
agencies, to carry out some of the training that they may have 
learned. But more importantly, TSA did distribute over 500 
copies of threat mitigation active-shooter training to our 
airport partners where the airport partners brief not only 
their own employees but the entire airport community on active 
shooter.
    Mr. Katko. Now, Mr. Martelle, could you give us your 
perspective? Obviously, you are at a different airport, and you 
head the New York State Association. How do you see the active-
shooter and emergency response programs at the airports that 
you oversee?
    Mr. Martelle. Well, we have an annual conference where we 
bring airports across the State together to talk about issues, 
and typically what we will do is we will go to the host airport 
and conduct an activity there geared to bringing directors and 
airport managers in to talk about issues. We conducted last 
year, September of 2014--Syracuse airport hosted the 
conference, and the Syracuse staff conducted an active-shooter 
training where they utilized the emergency operation center 
that brought first responders, airport law enforcement, TSA, 
all of the groups together and went through a scenario and 
activated their emergency operations center.
    So for us, it is more of an education and training and 
supporting our member airports, and I think the airports are 
really on the cutting edge when it comes to this type of 
training and working with our partners with the TSA and local 
law enforcement, because this is such a serious subject.
    Mr. Katko. Thank you.
    What I want to ask both of you just briefly is, is there 
more that you could be doing if you had the resources that 
Congress could help you with as far as active-shooter emergency 
response is concerned? You had better say yes, right?
    Mr. Martelle. Absolutely. As most of my testimony was 
regarding funding, funding is absolutely critical. Putting 
those dollars where it will support the TSA and help their 
mission and help airports back-fill some of the areas that they 
see as being critical to these types of programs is critical. 
So any funding that can be put towards preventing these types 
of actions is definitely helpful.
    Mr. Katko. Ms. Maola.
    Ms. Maola. Yes, and thank you, sir. Congress has been 
incredibly supportive, especially following the LAX and New 
Orleans incidents.
    Specifically, any policy presently does not require--TSA is 
not looking for anything. But, of course, funding is always on 
the table. We can always use more funding to help support some 
of the resources that we have at our airports.
    Mr. Katko. Okay. Switching gears a little bit, the training 
you have is trying to detect and respond to an active-shooter 
situation. But these incidents also point up a problem with 
respect to TSA Officers at airports, at least. They are 
unarmed, and they don't have the ability really to defend 
themselves in the traditional way, through weaponry. So you 
have to rely on other security support that is at the airports.
    This letter that I sent Homeland Security today to 
Neffenger that I referenced a few moments ago has to do with 
defensive tactics. I am concerned that there doesn't seem to be 
enough training going on, if any training at all, with respect 
to how TSO Officers are to protect themselves and defend 
themselves if they are engaged in an active-shooter situation 
in an assault-type setting.
    So, if you could, Ms. Maola, talk about that; and, Mr. 
Martelle, if you can add anything, please do so.
    Ms. Maola. I can't speak specifically on the defensive 
tactics, but I can speak with regard to the active shooter.
    So you may have heard, Chairman Katko, that just following 
the New Orleans incident and what occurred there, Officer 
Richel did say that some of the tactics they used to defend 
themselves came directly from the training that they had 
received with the run, hide, and fight, where they actually 
used, say, a suitcase to push the passenger away.
    So our goal is the safety of our officers. There are other 
things that we have done with regard to the incident at LAX, 
and one of those does have to do with police officer presence. 
The law enforcement officers have been very supportive, 
especially after LAX, where they do perform some patrols in and 
around our checkpoints.
    We also have our VIPR teams. Our air marshals have VIPR 
teams at the airports where they also are patrolling our ticket 
counters and checkpoint areas.
    We also do receive additional support from other law 
enforcement within the airport such as CPB and the National 
Guard if they are posted at specific airports, where they also 
provide visibility, especially during peak times.
    Mr. Katko. Thank you very much.
    Mr. Martelle.
    Mr. Martelle. Dedicated law enforcement at security 
checkpoints is something that not all airports are doing, but a 
lot of airports have been voluntarily policing LEOs at security 
checkpoints landside, which is where the passengers come up to 
the checkpoints. Syracuse Airport I know for a fact is doing 
that, and that program has been well received.
    Once again, it is a funding issue. You are taking resources 
from other locations, but the airport feels that it is 
something that is important and is part of an overall larger 
program. But arming the TSA security screeners or anything of 
that nature I can't comment on because I don't have enough 
information.
    Mr. Katko. Thank you.
    I could go on for a lot longer, but I am going to try to 
stick to somewhat of a schedule here and yield my time for Mr. 
Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    This is a great opportunity for me to see here in New York 
how things compare to what I am most familiar with in the 
Boston region. But I did notice, coming through these automated 
exit lanes, how new technology can be helpful.
    Under the regulations, statutory and regulatory language 
that currently exists, there is some ambiguity about who is 
going to be in charge of the staffing, who is going to be 
responsible for the costs, and this can be a great problem. For 
instance, if this were going to be retrofitted in another 
airport and they had to do configuration remodeling, changing 
the terminal, some of the interpretation is that once you do 
that, you are totally responsible, going along the lines, at 
least temporarily is my understanding, of still funding the 
cost of the exit lane personnel from TSA and not imposing that 
on the airport, something our subcommittee has worked to try 
and not make a result of these interpretations because all 
these airports are different.
    You have small airports, municipal airports, authorities--
it runs the whole gamut. Putting the cost and the 
responsibility on these airports that aren't doing, frankly, 
enough now is a problem.
    So, first of all, Mr. Martelle, from your perspective, how 
do you deal with these lack of interpretations, or what happens 
if you are trying to ultimately go to this, but in doing so you 
are triggering all kinds of costs to yourselves? To me--and I 
have said this before at hearings with TSA's top officials and 
Homeland officials--if this is going to be required and it is 
that important, TSA should be responsible for it and not leave 
it in the hands of the airport organization.
    So if you could comment on that problem, have you seen that 
ambiguity? Is it something that airports can absorb? What do 
you see here?
    Mr. Martelle. It is difficult for airports to absorb that 
because it does require additional staff, and historically that 
is not a function that the airport has undertaken. I can speak 
to the exit portals at Syracuse Airport. There are numbers 
associated with it. They have 8 portals total. With equipment 
and vendor installations, it was about $623,000, and the cost 
to put in the infrastructure to accommodate those was 
approximately $180,000. So it was a significant investment up 
front.
    While the portals do take up significant resources from an 
infrastructure standpoint, the cost to man them without the 
portals is about $300,000 a year for an ASO and about $550,000 
a year for an LEO. You can recoup those costs over a period of 
time. Right now there is no paying for maintenance and the 
operations.
    Mr. Keating. So you are doing the airports and absorbing 
this cost for these new----
    Mr. Martelle. Yes. The Syracuse Airport is absorbing the 
cost for the maintenance and operation of those.
    Mr. Keating. Don't you think that would be a huge 
deterrence to other airports going forward, the expense of 
this?
    Mr. Martelle. It could be. If there was a grant or 
something available to the airports to do the initial 
installation, that would be very helpful.
    Mr. Keating. What about the remodeling that goes with it? I 
mean, maybe this was easy to configure here, but it could be 
significant because you have wide-open spaces that you would 
have to reconfigure, build walls, and the expense could be 
enormous. So if you are trying to move to this and they are 
absorbing the cost, especially medium and smaller-size 
airports, where are they going to get the funds for this?
    Mr. Martelle. That is a point well taken. In my testimony I 
did talk about a $60 million improvement that the Syracuse 
airport underwent in recent times here. They were planning for 
this. So if you have an airport that needs to be reconfigured, 
it could be a significant cost. It could be millions of dollars 
to reconfigure the terminal.
    Mr. Keating. It won't happen, even if it might be helpful.
    The other thing I want to mention, too, is you mentioned 
cameras at airports, and you are looking to remodel that. I 
assume you are absorbing some of that cost, too? Or is TSA?
    Mr. Martelle. What I am familiar with, Federal funding is 
generally used for a lot of the security----
    Mr. Keating. Who oversees it to make sure the camera is in 
the right place?
    Mr. Martelle. Well, I would hope that airports would work 
with our partners, with law enforcement and the TSA, but there 
isn't a guarantee of that.
    Mr. Keating. Because I want to tell you that I referenced 
in my opening remarks a 16-year-old that secreted himself in 
the air well of a commercial airliner, a major airliner that 
was going from Charlotte-Douglas to Boston, and how he was only 
discovered after the landing gear went down over the town of 
Milton and his body was found, where he had frozen to death.
    I was the D.A. at the time. We went back with our police to 
investigate that, since it was a death, and we found out that 
the cameras didn't even pick his coming up through the 
perimeter, didn't pick up his even being near the airplane. 
Nothing was detected with the existing cameras that were there, 
which is even more amazing.
    It is not that a 16-year-old boy did this and went in, but 
also that after knowing he did it, nothing ever showed up that 
he was ever there. To me, when you are talking about cameras, 
that is not just within the terminal but should be outside 
around the perimeter, certainly around the area where the 
planes are, so that can be detected.
    Is that being done here? Do you have outside cameras? Could 
the same problem occur here?
    Mr. Martelle. At Syracuse Airport, they do have external 
cameras. The systems have become antiquated very quickly. I do 
know that they are looking at trying to secure investment once 
again from a State grant program to help support putting in 
additional cameras, especially out on the aircraft parking 
aprons, which would assist and help with detecting. But there 
again, you have to have somebody on the other side of the 
camera sitting in a room and making sure----
    Mr. Keating. Well, overall, we use a process, the Joint 
Vulnerability Assessment that is being done, looking at all the 
issues, outside and inside of the airports. But I must tell 
you, and just again for the record, that when that young man 
died, they were showing vulnerability assessments of 17 
percent, I believe, of all the airports, only 17 percent, 
despite the numbers I said in my opening remarks, and now it is 
down to 3 percent. So it is going the other way.
    So if you are looking at improving security, don't you 
think, Ms. Maola--what is your experience here? Are you, like, 
the norm, 3 percent of all the airports in the region where you 
are looking at it? I mean, how can we judge vulnerability on a 
piecemeal basis, and how can we do it with a decrease in these 
kinds of assessments?
    Ms. Maola. Thank you, Congressman. That is a great 
question.
    So, my job as a Federal security director is to ensure that 
no one gets onto the air operations area. It is not only my job 
for the TSA but it is an airport community initiative where 
everyone is involved in it.
    So presently what we do at many airports, and this goes 
across our Nation, but we have a very robust compliance team of 
inspectors that are out there every day. I can speak first-hand 
for JFK. I have well over 50 inspectors that are out there on a 
daily basis looking at perimeter, looking at cargo, catering, 
et cetera.
    We also specifically at JFK have roving patrols where the 
Port Authority did contract the company that works 24/7 just 
looking at our perimeter. We have well over----
    Mr. Keating. I must say that JFK is one of the best, most 
secure airports. Yet a man a few years ago was jet skiing----
    Ms. Maola. Yes, yes.
    Mr. Keating. He got into an accident, and he just went 
right up on the runway to the planes.
    Ms. Maola. Yes.
    Mr. Keating. It is a tough balance, too.
    The other pressure we hear from airports is the speed of 
getting through the airports, because you weigh the risk versus 
what you have to do to expedite people. It is a tough equation. 
But there has been a decrease in that expediting that is 
occurring, for people to go through what amounts to the TSA-
preferred lanes. We are hearing from--at least I hear from 
Logan Airport in Boston that that has been a problem.
    So, No. 1, if you could just quickly address what, if 
anything, is happening there.
    No. 2, very specifically, I am curious here in your region 
if you are having the same problems. I think you are getting 
more resources, frankly, in this regard for international 
flights. We are reporting an hour, hour-and-a-half delays in 
screening on international flights in our area, and we are 
trying to deal with this, the U.S. Customs and Border Patrol 
issues. Resources are tight, and they helped in our region with 
kiosks, additional kiosks. We even have the airports saying 
we'll pay for the overtime for Customs and Border people to try 
to alleviate this, yet they are not allowed to do it.
    Are there statutory or regulatory roadblocks to that? What 
can we do when we have an airport that is willing to give more 
of their own resources to move people along and help customers, 
but they have a roadblock in doing it? Is there something we 
can do?
    Ms. Maola. So, Congressman, TSA has just spent the last 7 
months looking at effectiveness, security effectiveness and 
that balance with the efficiency and the wait times. We trained 
all of our officers in mission-essential threat mitigation 
training. It was either a 10- or an 8-hour block for each 
officer, and what we are seeing at the checkpoint is an officer 
that is more diligent and screening one passenger, one bag at a 
time, identifying the threat. So we are seeing that.
    What we are seeing, especially when we had a very busy peak 
summer, we saw tremendous growth across our system, a 5 or 7 
percent increase in growth. Of course, it was attributed to 
additional wait times. But, as you may be aware, our 
administrator made a policy decision to cease Managed Inclusion 
2. So all airports have ceased the Managed Inclusion 2. We do 
also rely heavily on our other lanes of security such as our 
BDOs, our law enforcement partners that are out there that help 
mitigate some of the potential vulnerabilities or threats prior 
to the checkpoint.
    Mr. Keating. But the real issue I had, too, the specific 
one, drilling down, is even when you have airports willing to 
take that cost and you have existing personnel, why are there 
still roadblocks allowing more--especially on the international 
flights, the Customs and Border Patrol people, to be there? Is 
it regulatory, too? Or is it statutory? Do you know?
    Ms. Maola. I think I would have to defer that to Customs, 
because it could be statutory on their end. But from a TSA 
perspective, we have nothing to do with the Customs side of 
that, wait times.
    Mr. Keating. The dogs are helping on the TSA side.
    Ms. Maola. Absolutely.
    Mr. Keating. Moving people through. But there still has 
been a delay here, too, because you are doing away with some of 
the other procedures. Is that correct?
    Ms. Maola. Yes.
    Mr. Keating. It is a very tough balance to get people 
through and to keep us secure.
    I want to thank you for taking the time to be here, and we 
will continue in this committee to try to be helpful on both 
fronts, to try and deal with expediting people in and out, but 
also making people more secure.
    I yield back.
    Mr. Katko. Thank you, Mr. Keating.
    I want to follow up on some things he was asking with 
respect to the exit lanes, some of the nuts and bolts of it, 
because it is an issue that I am wrestling with, and I see how 
it works here in Syracuse because we have automated exit lanes, 
and it seems to be, at best, a very minor inconvenience or no 
inconvenience at all. Some people complain that it takes 
standing there for 3 seconds as opposed to 1, or something like 
that. If that is the biggest inconvenience you have, that is 
not so bad.
    But first of all, I guess we will start with Mr. Martelle. 
How many airports under your jurisdiction, the New York State 
Association, have the automated exit lanes? Is Syracuse the 
only one?
    Mr. Martelle. Right now, Syracuse plus JFK would make 2, 
that I am aware of.
    Mr. Katko. Are there any other airports, in the upstate 
region at least, Buffalo, Rochester, the major airports, that 
are looking into the automated exit lanes?
    Mr. Martelle. None that I am aware of at this point. I do 
know that when Ms. Callahan has the opportunity to talk to 
other airports, we do discuss that and the benefits of that 
type of program. But right now I am not aware of any.
    Mr. Katko. What are some of the benefits you talked about?
    Mr. Martelle. Staffing certainly is a big one. That is one 
of the key issues, certainly staffing, and the reliability of 
the checkpoints or the exit portals themselves. They don't take 
breaks. They are there 24/7, and the ability for implements or 
anything to enter the sterile area from the non-secured areas 
is minimized. So you take the human error, that human element 
out of it, and helping people exit in an efficient manner is a 
benefit to it.
    Mr. Katko. I will ask you the same question in a moment. 
But before I get to that, given the fact that there have been 
studies done that anywhere from $85 to $90 million a year could 
be saved in manpower expenses for just monitoring the exit 
lane, and you are taking away the human error capability, based 
on those facts, is there any discussion that people are trying 
to go toward the automated exit lanes, or is there still a 
question of whether you can afford the up-front cost to make it 
work?
    Mr. Martelle. I think everything is on the table at this 
point. The technology is definitely something that our member 
airports are interested in. They are interested in the up-front 
cost as something that certainly could potentially put a 
roadblock, so any funding that could be secured to help support 
that would certainly be welcome. But this is something that I 
do know that airports are very interested in.
    Mr. Katko. Okay.
    Ms. Maola.
    Ms. Maola. Yes, sir. Thank you, Congressman. TSA has looked 
at technology, and we work with airports interested in 
investing in the technology as an alternate to have our 
employees staff these lanes.
    So more specifically, we, TSA, we don't have that funding 
mechanism in place to pay for this type of technology, so we do 
rely on our airports, our partners to fund some of the enhanced 
security projects that are out there. As far as the role, we 
work together. I mean, everyone is part of the detect, deter, 
prevent. But we do rely heavily on our airports to fund those 
types of technologies.
    Mr. Katko. So that is part of the problem.
    Now, I will ask you, and then I am going to ask Mr. 
Martelle the same question. If expenses or costs associated 
with initially going with exit lanes, automated exit lanes, 
weren't an issue, which would you prefer based on your 
expertise? Would you think it is better to have the automated 
exit lanes or just keep them the way they are now?
    Ms. Maola. So, what works in one airport may not 
necessarily work in another airport. There are differences.
    Mr. Katko. You sound like a politician saying that.
    [Laughter.]
    Ms. Maola. Well, I actually was privy coming to Syracuse 
last night, landing, and I went through the portal. It is 
wonderful. I thought to myself, wow, JFK, some of the 
proposals--nothing is definitive, but the plan would be 
Terminal 4 at JFK, which is our biggest international terminal, 
is looking at this portal. But I had said, what would that look 
like at a JFK? The 3 seconds, 5 seconds that it takes for an 
individual to get into these portals, that processing time 
could be pretty detrimental at a larger airport because you 
would literally have lines that could go back all the way to 
the gate. So I was looking at that difference and the balance.
    So if no cost was involved, if it eliminates the human 
factor, knowing that you have a great piece of technology like 
this, of course TSA would have to look at what works at each 
airport, because not all the airports are the same, and we do 
not want to impede on the operation either, or slow down the 
process.
    Mr. Katko. Mr. Martelle.
    Mr. Martelle. Putting on my airport manager's hat, I would 
say anytime that we can cut down staffing costs and add some 
technology that would decrease errors and allow for more 
efficient screening of people, I would say I would support 
that. I think that as the technology gets better, certainly it 
will become more accessible by airports. But there again, it is 
a funding issue of infrastructure. Some airports aren't 
designed in the same manner. If you have seen one airport, you 
have seen one airport. So making sure that the infrastructure 
is there and the ability for airports to actually work around 
that infrastructure and install these would be critical. But I 
would support something like that.
    Mr. Katko. In my previous life as a Federal prosecutor, I 
often had the opportunity to travel abroad and train 
prosecutors all over the globe. I was always struck, especially 
in the European countries, that their technology generally was 
much better than ours as far as these types of things go.
    Have you been to the airport in Munich, by any chance? It 
is unbelievable. It is high-tech, and they have all automated 
exit lanes, and they seem to work wonderfully.
    It just seems to me that if you have a chance for a billion 
dollars of savings, close to a billion dollars of savings over 
a 10-year period if you automate exit lanes, it seems to me we 
can find a way to help you finance that and that is the way to 
go.
    The problem is you have some of these old airports, like 
National Airport and JFK and LaGuardia, they are kind-of like 
old hospitals. There are corridors everywhere, there are rooms 
everywhere. It is not necessarily the best laid-out place. It 
just keeps being built as capacity dictates. But as a general 
rule, it seems to me that if we can somehow find a way to pay 
for this stuff, it might actually make sense in the long run, 
and I don't think you have to cut jobs. You can simply move 
people from one area to another as attrition happens and do it 
that way. I am not talking about eliminating jobs. I am just 
talking about better utilizing the workforce and planning going 
forward. With the technology the way it is now, anything we can 
do to stop these issues.
    I will just note quickly, when I am leaving National 
Airport, I get off the plane and come off their Terminal 35, 
and it is like a zoo, and then I walk out and there are 
anywhere from three to four law enforcement people sitting at 
desks playing solitaire on their computer or whatever, just 
kind of standing there and watching people walk by and leave. 
It just to me seems incredibly wasteful.
    As we progress with our goal to make airports as secure as 
possible, we ought to keep that in mind.
    With that, I will yield back to my colleague.
    Mr. Keating. Thank you, Mr. Chairman.
    I just want to go back on the Customs and Border Patrol 
issue with Mr. Martelle. Maybe that might be a better venue for 
the question.
    Are you aware of any airports--I am just familiar with 
Boston--willing to have the cost of the overtime funded by 
themselves just to expedite that hour, hour-and-a-half wait 
that exists? If you are not aware, would you think that would 
be something you would see a utility of from the airport side 
if that is a problem there?
    Mr. Martelle. I am not aware of any situation where that 
has come into play, but certainly if an airport has that 
funding available and they are willing to do that, that might 
be something that could be entertained. But I think as far as 
the Customs and Border Patrol situation is concerned, I can't 
speak to that specifically because I am not familiar with it.
    Mr. Keating. Maybe in part because your area is getting 
extra Customs and Border people funded. That is something that 
if an airport wanted to go ahead--we will follow that up on 
both fronts, not as much with TSA but with Customs and Border.
    I want to see, in terms of best practices and some of the 
things we mentioned, where do we stand right now with upgrades 
in communications so that airport officials and TSA officials 
and local law enforcement can all communicate with each other 
in real time? Both of you, if you can answer.
    Mr. Martelle. I think this is still a significant challenge 
with the interoperability of equipment. The technology from my 
previous life at Albany airport, we had various systems that 
were patch-worked together. One had a digital system. Another 
agency had a different kind of analog system. I think those 
challenges still exist. Things are getting better between law 
enforcement agencies as old equipment becomes obsolete. I 
believe that all the partners in the security for an airport 
are getting together and discussing how they can make their 
systems interoperable and communication between local law 
enforcement, the TSA, and the airport sponsor together. That is 
always important, and I do know that that is something that 
many airports are working on currently.
    Mr. Keating. My recollection of the 9/11 Commission study 
dealt with the World Trade Center bombings, the airplanes 
crashing into the World Trade Center. If they had more viable 
first responder coordination back and forth, there is not one 
other factor that they could identify that would have saved 
more lives in that process of reacting to that. So wouldn't you 
think that that would be a priority, Ms. Maola, of all the 
things that we are doing, making sure they can all communicate 
in real time?
    Ms. Maola. Absolutely, Congressman. That is one of the 
reasons why we did aggressively install the duress alarms, to 
ensure that that communication between a truly life-and-death 
situation, where it is imminent and they reach out directly to 
the law enforcement officers to respond, that that is one of 
those things that I couldn't agree with you more, sir.
    Mr. Keating. The radio communications necessary following 
that up would be----
    Ms. Maola. The interoperability of communications is always 
certainly a Government-wide challenge. One of the things that 
we did do in light of the LAX incident was any TSA employee 
phone that is issued has been uploaded with airport contact 
information where there is immediate contact information 
uploaded into every device, as well as we can only encourage 
employees with their personal phones to do the same. So we do 
provide guidance out there to the workforce. We are constantly 
communicating with them about their well-being, ``See 
Something. Say Something'', vigilance, protecting yourself.
    Mr. Keating. Is there still a need to upgrade that 
coordination with first responders and airport and TSA 
officials? Is there still a necessary upgrade of that that has 
to occur, the real-time communication, other than the alarm 
saying ``come here,'' basically?
    Ms. Maola. There is always room for improvement, and that 
is one of the things that we are looking forward to in the 
Gerardo Hernandez Act. As I mentioned earlier with Congressman 
Katko, we have a working group that is convening looking at the 
law so we can carry out the provisions in the law. But part of 
that does discuss the incident response where every airport 
will have to individualize their plans to ensure that we have 
communications which are going to be included within that 
response plan.
    Mr. Keating. One reason I ask here is because if there is 
any place in the country where there is an ability to do that 
given the resources and the training of the first responders in 
the New York area, as well as in the airports, it is here. If 
it is not up to speed here, my conclusion would be that it is 
not up to speed anywhere the way that it should be. So I am 
curious.
    If you could contact the committee and tell us what 
upgrades you are doing, how that first responder communication 
is going. Not every airport is the same as the airports here, 
yet if you can do it here, you can do it in the smaller and 
medium airports as well. It is probably in many of the smaller 
airports more necessary than anyplace else.
    In terms of deterrent issues, the VIPR program--and you can 
take a minute to probably explain it better than I can--the 
budget for that has been decreased $23 million, and the budget 
for 2016 another $3.1 million decrease is in place for 
elimination of two VIPR teams. They are deployed not only in 
aviation facilities but also surface sector areas where I think 
in our country bus, trains, and other surface transportation, 
we haven't had the threats actually occur the way they have in 
Europe, for instance, but there is reason to believe they might 
be forthcoming.
    I mean, what is your reaction to the cuts in this area? 
Should it be a concern? Should it be something we look at in 
Congress to make sure we are funding?
    Ms. Maola. From a TSA perspective, the President did sign 
that law, so there were cuts and the funding was taken away. 
The VIPR, which is the Visible Intermodal Prevention and 
Response, it is really----
    Mr. Keating. Notice I had you say that.
    [Laughter.]
    Ms. Maola. I like saying VIPR. But we do have that in place 
where, yes, the resources were cut, but we have limited 
resources at our airports. But we do utilize, as I mentioned 
earlier--whether it is our Federal Air Marshals, we bring in 
law enforcement at those airports, officers, BDOs, to be on 
this VIPR team.
    So I understand the cuts; and, of course, if there was any 
way to have more funding to increase some of the VIPR activity, 
of course, in my own personal opinion, I would support it.
    Mr. Keating. Mr. Martelle, are they valuable to the 
airports? Have you found that?
    Mr. Martelle. I am sorry, I am not familiar with the VIPR 
teams, but we have rapid intervention teams that we use that 
are only geared toward aviation. To cut that program, we found 
them very useful and I wouldn't see a need to cut a program 
unless it was found it wouldn't be useful in certain respects. 
But I can't really comment on the VIPR teams.
    Mr. Keating. Thank you, and I yield my time back. Thank you 
very much.
    Mr. Katko. The last thing I want to touch on before I wrap 
up my portion of the testimony is on access controls. As you 
know, I have introduced a bill that hopefully will be voted on 
in November about access controls in airports. The bill that I 
introduced was precipitated by a number of acts that occurred 
over the last few years at airports Nation-wide, the most 
poignant one of which was a gentleman that was caught coming 
off the plane from Atlanta to LaGuardia with a backpack full of 
guns. He had either 14 or 15 guns, maybe as many as 17, 9-
millimeter guns and two assault rifles, most of which were 
loaded.
    It turns out this gentleman had made about 10 trips with 
similar amounts in the past, and he had an airport employee 
from Delta Airlines in Atlanta who would simply walk the bag 
through from the non-secure area of the airport into the secure 
area of the airport using a SIDA badge, and just handed him the 
bag. The guy got on a plane and went up to New York and sold 
them. Of course, the possibilities for something to go wrong 
are incalculable, and the tragedies that could have resulted 
are amazing, but it really pointed up this lack of security at 
airports.
    Some of TSA's responses included the VIPR team. Then we 
hear more incidents, like the drug trafficking ring that was 
disrupted at LAX and Dallas-Ft. Worth where they were simply 
talking to each other, the employees, about where the VIPR 
teams were in the secure areas of the airport, and they were 
just going through other doors that weren't secure and bringing 
the drugs into the airports. You overlay that with the fact 
that one of the individuals, it came up at his preliminary 
hearing, was offering to bring anything through the employee 
access doors, including bombs. That, to me, is frightening.
    We have an obligation to try and beef up security. You look 
at all that and you say, well, let's make them secure. Let's 
let them go through just like travelers have to go through. The 
way these airports have been designed--we talked about it 
earlier, how they kind of have been expanded in sometimes a 
hodge-podge manner to meet demand--there are a lot of access 
points. Some airports have as many as a couple of hundred 
access points. Some have a lot less. Atlanta is going from 64 
access points, trying to get down to 4, and they are trying to 
go to 100 percent screening. There are only a few airports in 
the country that can do 100 percent screening.
    We have developed testimony about that, but as long as you 
are here I just wanted to get your take on it, each of you, 
what your concerns are with respect to access controls. You 
have a very good perspective also because you have small 
airports that you oversee and have influence on, and then you 
have the big mamas in New York City. You have LaGuardia and 
Kennedy. So, you have everything.
    I understand the practical problems with trying to secure 
all the access points, but God forbid we don't do everything we 
possibly can and something happens, because when you have close 
to a million airport employees Nation-wide, you just need one 
bad guy. If you think about what is going on now in the country 
with respect to ISIS and how people are getting radicalized 
over the internet from afar and someone is having a bad time in 
their life, and then they get this thing where you can get 
everybody back by blowing something up or putting a bomb on a 
plane or whatever, it is really kind of scary. For people 
offering to take bombs on planes, it is kind of scary stuff.
    So with that heavy overlay, I would just like to get your 
take on the access control or, more importantly, what we can do 
to beef up the access controls and what is realistic. Anyone 
can start because it is a real fun topic, I'm sure, for you 
two.
    Ms. Maola. So, Congressman, aside from the logistics and 
the cost involved in conducting 100 percent employee screening, 
the individuals that work at the airport are vetted and are a 
trusted population. It sort of contradicts what you just 
mentioned, some of the examples that you provided. But we do 
have a system in place with access control, with identification 
that, of course, we can close down access immediately, 
especially if the I.D. badges are lost or stolen. But we also 
have to have our workers trust their fellow workers.
    Basically, with the individuals that they are working with 
every day, they practice challenge procedures, ``See Something. 
Say Something.'' We have increased some of our Playbook 
activity at some of these access points. The airports in 
Syracuse have done a great job as far as reducing access 
points, whether it is a small airport, a large airport. We are 
making every attempt and effort to mitigate as much as we can. 
We are forcing individuals and employees to either utilize a 
checkpoint or some sort of screening or going through limited 
doors where we have visibility there, whether it is VIPR, 
Playbook, law enforcement, where there is some sort of 
additional screening done at those doors.
    Mr. Martelle. Access control is definitely something that, 
from a financial perspective and a facility perspective, is 
very significant. The screening of all airport employees can 
take--if you have an initial push in the early morning and you 
are screening thousands of employees arriving at some airports 
in the morning, the insider threat is a big thing. Teaching 
people that if you see somebody coming in who is not scheduled 
to work with a backpack full of whatever, say something about 
it, tell somebody that something doesn't look right.
    So we rely on the airport employees to do a lot of the 
internal part of security, and the practicality of screening 
everybody right now is that it really isn't practical, even 
though that is not a good way to look at it, just because of 
the sheer nature of the way things are laid out in an airport 
environment. I think screening product is definitely something 
that needs to occur. You can screen employees, but you are also 
going to need to screen product. There is product that goes 
into the sterile area of airports out in the secured area that 
may not be screened, and it is just as easy for somebody to do 
something wrong with that as well.
    So it is a comprehensive plan of people, product, and then 
airport employees being diligent and notifying people when they 
see something that is not right.
    Mr. Katko. Yes, and the bill that is being contemplated 
virtually came out prescribing what should be done at all 
access points, and we have heard enough of the articulation of 
what you both talked about today to realize that we need to 
look at it more. So we are asking them to do an analysis of the 
cost and the types of things that make the most sense going 
forward.
    But my overall sense is that we need to do more and beef up 
access controls more than what we have right now. We owe it to 
the American public and we have to get a handle on it because 
it is a vulnerability that I had no idea existed until I got 
into this job. We sometimes tell people if you knew what we 
know, sometimes you wouldn't even get on a plane.
    But I understand the American public is best served as it 
possibly can be with the people at the airports and the 
security they are trying to do. But it is very, very difficult, 
and as air traffic and air capacity increases, like it is 
projected to over the next couple of decades, it is our duty to 
make sure that we do everything we can to make sure we get in 
place the proper security measures, both for employees and 
people visiting the airports.
    So, Mr. Keating, do you have any more questions?
    Mr. Keating. No, I just apologize for the notes back and 
forth. There is a little irony here with airport management, 
but our flight was cancelled back to the District of Columbia, 
so we are scrambling to try and see if we can get back.
    Mr. Katko. That is payback for talking about access 
controls, I think.
    [Laughter.]
    Mr. Katko. Well, we really appreciate both of you coming up 
here today, and we appreciate your professionalism. We 
appreciate your candidness. Just so you know, when you testify, 
it doesn't go into a vacuum. We have a bunch of people here 
listening, and the staffers are far smarter than we are, and 
they are going to take this information, synthesize it, and use 
it. So it is not just a question of putting on a show and 
having to come here. We take your input, and we take it very 
seriously, and we value it. So, we appreciate it.
    On behalf of Mr. Keating and myself, I want to thank both 
of you for being here. Your testimony was great. The Members of 
the committee may have some additional questions for the 
witnesses, and we ask you to respond to those questions in 
writing. Pursuant to Committee Rule 7(e), the hearing record 
will be held open for 10 days.
    Without objection, the subcommittee stands adjourned. Thank 
you.
    [Whereupon, at 12:11 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
